CERTIFICATE OF SERVICE US SUPREME COURT
CASE NO.___________________
Court of Appeals No. G058123
This certificate of service is made per Rule 30(3).
Title of Documents Served: Petition for Writ of Certiorari and Appendix
Method of Service: U.S. Mail 1st Class postage prepaid and by e-mail on 2-14202- by placing true copies (3) thereof enclosed in a sealed envelope addressed as
follows.
Persons Served: Stephen Marsh and Damon Marsh, Individually and as CoExecutors of the Estate of Monroe F. Marsh. Service upon their attorneys of record
Stephen Magro, 714-832-8456, Smagro@smagrolaw.com. Office of the Solicitor
General, Noel Francisco, 202-514-2217 at his web portal; Office of Attorney General,
California Xavier Becerra, 916-445-9555, oag.ca.gov at his web portal.
Address Where Served: Law Office Stephen Magro. 14101 Yorba St #101,
Tustin, CA 92701; Office of Solicitor General, 950 Pennsylvania Ave NW,
Washington DC 20530-2203; Office of Attorney General California 1300 I St #125
12th Floor, Sacramento, CA 95814.
Courtesy Copy to Jane Hodson Marsh, Administrator of Estate of Stephen
Marsh. Service upon her attorney Ryan Hancy, 801-532-8000,
Rhancey@KeslerRust.com. Law Office Kesler & Rust, 68 So. Main St, Salt Lake
City, Utah 84101;
All parties required to be served have been served.
My business address is 63 Lakefront, Irvine, California 92604. I am a

member of the bar of this court and have caused the above-mentioned service to be
made.
I declare under penalty of perjury of the laws of the United States that the
foregoing is true and correct.
Executed on 2-14-2020 at Irvine, California 92604
_________________________
Michael Weiss, Bar #175272

